<html>
<title> - FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================



                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2009

                               __________

                           Serial No. 111-30

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
49-782                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
LUIS V. GUTIERREZ, Illinois          TOM ROONEY, Florida
BRAD SHERMAN, California             GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel



                            C O N T E N T S

                              ----------                              

                              MAY 20, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2

                               WITNESSES

The Honorable Robert S. Mueller, III, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     3
  Prepared Statement.............................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.............................    65
Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................    66
Post-Hearing Questions submitted to the Honorable Robert S. 
  Mueller, III, Director, Federal Bureau of Investigation........    67


                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:22 a.m., in 
room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Nadler, Scott, Watt, 
Lofgren, Jackson Lee, Waters, Delahunt, Wexler, Cohen, Johnson, 
Quigley, Sherman, Gonzalez, Schiff, Wasserman Schultz, Maffei, 
Smith, Sensenbrenner, Coble, Gallegly, Lungren, Issa, King, 
Franks, Gohmert, Jordan, Poe, Rooney, and Harper.
    Staff present: Robert Reed, Majority Oversight Counsel; 
Crystal Jezierski, Minority Oversight Counsel; and Renata 
Strause, Majority Staff Assistant.
    Mr. Conyers. Good morning. The Committee will come to 
order.
    And now we would like to turn to the business of the day.
    This is the regular oversight hearing on the Federal Bureau 
of Investigation.
    We welcome FBI Director Rob Mueller to today's hearing. The 
FBI is the anchor of the Nation's Federal law enforcement.
    The bureau has responsibilities, as we recall, to include 
the ability to combat crime, conduct surveillance, initiate 
investigations, and to effectively perform its responsibility 
requires an internal strength inside its own operations.
    And I would like to just point out that the recent 
inspector general's report regarding the FBI disciplinary 
system raised questions about the process within the bureau.
    We are hoping that FBI personnel who engaged in the 
improper use of exigent letters, once the IG's upcoming report 
is released, when we find out what actually happened, we will 
expect a proper follow-through.
    We want to ensure that the FBI has the resources to combat 
the problems that have arisen out of the global financial 
crisis that started in the United States with the subprime 
mortgage meltdown and we want to make sure that FBI has the 
resources to investigate questionable activity.
    We know that there was mismanagement, more than likely, 
fraud, white-collar crimes, perhaps even RICO issues, that have 
contributed to this very serious economic problem now facing 
the country.
    I will put the rest of my statement in the record, and turn 
to Lamar Smith, the Ranking Member of the Committee, from 
Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, following the terrorist attacks of 9/11, the 
mission of the bureau changed dramatically from that of a 
traditional law enforcement agency to an agency tasked with 
investigating terrorism and national security threats.
    The bureau has undertaken significant efforts to conform to 
its new mission, to revise its investigative techniques, 
retrain its agents, and more effectively analyze and respond to 
intelligence information.
    America is safer today because the men and women of the 
bureau and other agencies work tirelessly to protect us.
    At the end of this year, the remaining temporary provisions 
of the USA PATRIOT Act are set to expire. These provisions, 
which include roving wiretap and FISA business records 
authority, are essential to the bureau's ability to prevent 
acts of terrorism and respond to other threats to our national 
security.
    To ensure that there is no lapse in these vital 
authorities, I have introduced legislation to extend the 
expiring provisions for 10 years.
    The threat to America from terrorists, spies and enemy 
nations will not sunset at the end of this year and neither 
should America's antiterrorism laws.
    Despite the bureau's efforts to keep America safe from 
terrorists, I am concerned that the new Administration's 
decision to close Guantanamo Bay may result in some of the most 
dangerous terrorists being transferred to the U.S. or released 
into America's communities.
    To me, bringing terrorists to the U.S. undermines the 
bureau's efforts to prevent another terrorist attack. No good 
purpose is served by allowing known terrorists, who trained at 
terrorist training camps, to come to the U.S. to live among us.
    Guantanamo Bay was never meant to be another Ellis Island. 
Terrorists were detained there for a reason--to keep American's 
safe.
    I understand that the bureau is part of the Gitmo detainee 
review process established by President Obama. I hope that the 
bureau will express its concerns to the Administration about 
the threat these terrorists pose to Americans here at home.
    While the bureau pursues its national security efforts, I 
know it will continue its law enforcement mission, including 
the investigation of widespread fraud associated with America's 
financial crisis.
    Many factors contributed to this collapse, including 
predatory lending by corrupt lenders, mortgage fraud, and even 
foreclosure fraud.
    Another important focus of the bureau is preventing crimes 
against children, particularly Internet-based crimes involving 
child pornography or child exploitation.
    Often, the only mechanism for identifying an operator or 
user of a child pornography Web site is their Internet photo-
call address.
    Currently, a law enforcement officer can request subscriber 
information from an Internet service provider. However, ISPs 
regularly purge these records, making it difficult, if not 
impossible for law enforcement officials to apprehend the 
distributors and consumers of child pornography on the 
Internet.
    I have sponsored bipartisan legislation, the Internet 
Safety Act, to require ISPs to retain these records for up to 2 
years.
    I am interested in knowing what are Director Mueller's 
thoughts on the need for record retention to investigate child 
pornography and other Internet-based crimes, and I will be 
asking a question about that in a minute.
    Again, Mr. Chairman, I thank Director Mueller for joining 
us today and I look forward to hearing from him.
    I yield back the balance of my time.
    Mr. Conyers. Thank you.
    All other Members' statements will be included in the 
record at this point.
    We welcome, again, Robert Mueller, III, director of the FBI 
since September 4, 2001, from Princeton, Virginia Law School, 
the Marines, where he received combat medals, assistant United 
States attorney in San Francisco, in Boston and Washington, DC.
    He served with distinction in two law firms and called back 
from San Francisco to Washington in early 2001 to become acting 
deputy general, until he served--and is the director.
    We welcome you again to our humble Committee room. Your 
statement is in the record, and we urge you to make your 
comments as you would like us to hear them.
    Welcome, again. Good morning.

 TESTIMONY OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Mueller. Thank you, Chairman Conyers, Ranking Member 
Smith, and other Members of the Committee.
    As, Chairman Conyers, you pointed out, and Congressman 
Smith, we in the FBI have undergone unprecedented 
transformation in recent years, from developing the 
intelligence capabilities necessary to address emerging 
terrorist and criminal threats to creating the administrative 
and technological structure necessary to meet our mission as a 
national security service.
    Today, the FBI is a stronger organization, combining better 
intelligence capabilities with a longstanding commitment to 
protect the American people from criminal threats. And we are 
also ever mindful that our mission is not just to safeguard 
American lives, but, also, to safeguard American liberties.
    Certainly, the threats currently present in the national 
security arena continue to be a grave concern. Terrorism 
remains our top priority and, as was illustrated by the Mumbai 
attacks, we cannot become complacent.
    Al Qaida, lesser known groups and homegrown terrorists will 
continue to pose a threat to the United States.
    And we in the FBI must also continue to guard our country's 
most sensitive secrets from hostile intelligence services and 
remember that our Nation's cyber infrastructure is vulnerable 
to compromise or disruption, be it from a terrorist, a spy or 
an international criminal enterprise.
    But these three are by no means our priorities. While 
Americans justifiably worry about terrorism, it is crime in 
their communities that often most directly impacts their daily 
lives.
    Public corruption continues to be a top criminal priority. 
The FBI has 2,500 pending public corruption investigations; in 
the last 2 years alone, has convicted more than 1,600 Federal, 
state and local officials. And we remain committed to ensuring 
that those given the public trust do not abuse it.
    As was pointed out, economic crime is, of course, a 
critical concern now more than ever. For example, the FBI's 
mortgage fraud caseload has nearly tripled in the past 3 years 
from over 800 to over 2,400 active investigations.
    The FBI currently has more than 580 pending corporate fraud 
investigations, including cases directly related to the current 
financial crisis.
    In response, we have been shifting personnel within the 
organization, to the extent possible. We have been using new 
analytical techniques to better identify trends and violators, 
and we have been building upon existing partnerships to further 
leverage expertise and resources.
    For example, we created the national mortgage fraud team at 
FBI headquarters to prioritize pending investigations, provide 
additional tools to identify the most egregious violators, and 
provide strategic information to evaluate where additional 
manpower is needed.
    We also have established 18 mortgage fraud task forces and 
50 working groups with other government agencies across the 
country so that we may more effectively focus on these problem 
areas.
    While the FBI is surging resources to mortgage fraud, 
public corruption investigations, our expectation is that 
economic crimes will continue to skyrocket.
    The unprecedented level of financial resources committed by 
the Federal Government to combat the economic downturn will 
lead to an inevitable increase in economic crime and public 
corruption cases.
    Historically, the bureau has handled emerging criminal 
threats by transferring personnel within its criminal branch to 
meet the new threat. Since September 11, we have lost some of 
this elasticity.
    In response to the September 11 attacks, the FBI 
permanently moved approximately 2,000 of its criminal agents to 
our national security branch. This transfer has substantially 
improved our counterterrorism program and we have no intention 
from retreating from preventing another terrorist attack on 
American soil as our number one priority.
    But the logical consequence of cannibalizing our criminal 
resources to augment our national security efforts is that we 
have reduced the ability to surge resources within our criminal 
branch.
    Although we have begun an effort to rebuild our criminal 
resources back to our pre-9/11 levels, we still have a 
substantial way to go.
    As always, the FBI will set priorities to attack the most 
severe threats, but a note of realism is in order in light of 
the scale of the FBI's existing mission after September 11 and 
the degree of strain on our current resources.
    Violent crime, let me discuss this for a moment, because 
it, quite obviously, is a very serious concern. And although 
data indicates violent crime continues to decline across the 
country, in general, the citizens of many communities, 
especially small to midsized cities, continue to be plagued by 
gang violence and gun crime.
    Since 2001, our gang cases have doubled and the spread of 
international gangs, such as MS-13, has increased. The FBI 
continues to combat this threat through more than 200 safe 
streets, gang violent crime and major theft task forces across 
the country.
    These task forces enable us to work effectively with state, 
local, tribal and international partners to provide an 
immediate response to surges in violent crime.
    And so, too, must we continue our work with state and local 
counterparts to combat crimes against children, the most 
vulnerable members of our communities.
    While the FBI is committed to combating child sexual 
exploitation, child pornography via the Internet, trafficking 
and child prostitution, or abuse on Federal lands or Indian 
country, more must be done.
    I thank the Committee for its support of increased 
resources to the bureau in this area and would be happy to 
continue working with you to ensure our Nation's children are 
protected.
    We are also deeply concerned about the high levels of 
violence along the southwest border. Gang activity, drug cartel 
competition for supremacy, murders and kidnappings plague the 
border in both the United States and Mexico.
    The impact of these crimes can even extend well beyond the 
border into America's communities. And we will continue our 
strong alliance with our Mexican and domestic law enforcement 
partners to address border-related crime, especially as it 
relates to public corruption, gangs, and intelligence analysis.
    Finally, we will continue our efforts to combat health care 
fraud, mindful of estimates that more than $60 billion of our 
Nation's health care spending each year is lost to fraud.
    In 2008, FBI investigations led to nearly 700 convictions 
of health care-related crime and we will continue partnerships 
with the national health care organizations and other Federal 
agencies to address these cases as we are able.
    I also want to spend just a moment to update you on key 
changes we have made within the FBI, both in our structure and 
in the way we do business to more effectively meet the 
challenges presented since September 11.
    We know that the FBI's best and strongest asset is our 
people. And so we have paid attention to recruiting, training, 
and maintaining a workforce with the skills necessary to meet 
the challenges of today's mission.
    Our hiring goals include agents, intelligence analysts, IT 
specialists, linguists, and professional staff. And this year, 
we have received more than 450,000 applications and have 
already extended 5,500 job offers.
    Finally, a few words regarding improvements in the FBI's 
technology. Sentinel, our Web-based case management system, is 
on time and on target. The bureau currently has more than 
30,000 workstations in the FBI unclassified network, providing 
desktop Internet connectivity to employees throughout the 
enterprise.
    BlackBerries with internet capability have been issued to 
24,000 of our employees, and we are strengthening other 
information technology programs to help us operate more 
efficiently.
    In closing, I would like to thank this Committee for your 
support to the men and the women of the FBI, and I look forward 
to working with the Committee on these and other challenges 
facing our country.
    Mr. Chairman, Representative Smith, Members of the 
Committee, I appreciate the opportunity to be here today and 
look forward to answering your questions.
    Thank you, sir.
    [The prepared statement of Mr. Mueller follows:]
       Prepared Statement of the Honorable Robert S. Mueller, III

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________


    Mr. Conyers. Thanks for your opening statement.
    Could I ask Lamar Smith to begin the questioning today?
    Mr. Smith. Thank you, Mr. Chairman.
    And, Director Mueller, thank you for being here today.
    My first question is this. In general, what concerns do you 
have about releasing individuals suspected of terrorism into 
our communities? What dangers could they pose?
    Mr. Mueller. Well, I am quite aware of the discussions that 
are ongoing in the Department of Justice and elsewhere in the 
Administration as to what should be done with the detainees in 
Guantanamo.
    I can speak generally, without getting into those 
discussions, that the concerns we have about individuals who 
may support terrorism being in the United States run from 
concerns about providing financing to terrorists, radicalizing 
others with regard to violent extremism, the potential for 
individuals undertaking attacks in the United States.
    All of those are concerns relevant to an individual who 
comes into the United States, from whatever source, who may 
present a challenge.
    Mr. Smith. Thank you.
    Recently, you have said that you support reauthorization of 
the three expiring provisions of the PATRIOT Act.
    Do you foresee any need to make any changes in those three 
expiring provisions?
    Mr. Mueller. No. I previously, when questioned, testified 
that the three provisions, the first one, the business records 
provision, has been exceptionally useful for us over the period 
of time that it has been on the record books and we have used 
it over 230 times.
    The second provision that is sunsetting relates to roving 
wiretaps. We have used that over 140 times. It has been 
exceptionally useful and cut down on not only paper, but also 
enabled us to better facilitate our investigations.
    And, lastly, the Lone Wolf provision, while we have not 
used it with regard to an indictment, it continues to be 
available for that individual whom we lack evidence to put with 
a particular terrorist group, but does present a threat as an 
international terrorist.
    Each of those three provisions are important to us. And 
while I don't believe the Department of Justice has yet weighed 
in with its letter, this is what I have testified to in the 
past and is my current opinion.
    Mr. Smith. And you don't foresee the need to make any 
changes in any of those provisions.
    Mr. Mueller. Not at this juncture.
    Mr. Smith. Okay.
    Mr. Mueller. No, sir.
    Mr. Smith. Do you see the need to make any changes in the 
standards for issuing national security letters?
    Mr. Mueller. No, I do not. I know, in the past, I have had 
discussion with Congressman Nadler in terms of the standard for 
the issuance of national security letters and as I have said 
before and believe to this day, that national security letters 
enable us to obtain information on the fact of a call as 
opposed to the content of a call is absolutely essential in 
order to building the probable cause we need for a warrant from 
the Foreign Intelligence Surveillance Act, and we would be 
badly hampered if we did not have that tool available to us 
with the current standard.
    Mr. Smith. Thank you for that answer.
    The last question is this, and this goes to--and you 
covered it a little bit in your opening statement--the need to 
better prosecute and reduce the prevalence of Internet child 
pornography.
    I have introduced a bill, bipartisan bill, that requires 
the Internet service providers to retain their records for 2 
years to allow the law enforcement authorities to be able to go 
after the individuals who buy their trade.
    Would you support that 2-year retention of those records by 
the ISPs?
    Mr. Mueller. Well, I would be guided by, being in the 
Department of Justice, by the--guided by the position taken by 
the Attorney General and the Department of Justice.
    On the other hand, I can say that in any investigation, 
particularly when it comes to child pornography or even 
terrorism, where you may identify an individual who is 
utilizing the Internet either for child pornography or either 
recruiting or operating a terrorist network recruiting or 
operating over the Internet, it is not just that which you pick 
up on the first day of the investigation that is essential not 
only to the investigation, but successful prosecution, but 
those records, historical records that may be available that 
enable you to both further the investigation and undertake the 
prosecution.
    Mr. Smith. So longer record retention would be helpful.
    Mr. Mueller. Yes.
    Mr. Smith. Isn't the international standard 2 years for 
record retention or don't many countries use that 2-year 
period?
    Mr. Mueller. I haven't looked at it in a while, but I 
believe, the last time I looked at it, it was up to 2 years. I 
think the European Union has adopted a standard of up to 2 
years.
    Mr. Smith. Two years, okay. Thank you, Director Mueller.
    Thank you, Mr. Chairman.
    Mr. Conyers. The Chairman of the Constitution Subcommittee, 
Jerry Nadler.
    Mr. Nadler. Thank you, Mr. Director.
    I heard your answer to Mr. Smith's question a moment ago 
about the Guantanamo detainees being released to the United 
States, but you were referring to terrorists released to be 
free in the United States, obviously, from the context of your 
question.
    My question is: assuming that people at Guantanamo are 
released into super-maximum security prisons in the United 
States, is there any problem holding them there?
    Mr. Mueller. Well, I hesitate to get into the specifics. It 
depends where the person is held, what kind of security 
procedures there are.
    Mr. Nadler. I didn't ask that. I said do we have the 
capacity to hold dangerous people in our maximum security 
prisons.
    Mr. Mueller. Yes.
    Mr. Nadler. Does their presence in our maximum security 
prisons present any danger to the United States?
    Mr. Mueller. Again, it depends on the circumstance. If it 
is a national security, if it is Florence or something, I think 
it would be very difficult for the person to get out and very 
difficult for the person to undertake any activity.
    However, I will caveat by saying that in gang activity 
around the country, using it as an analogy, there are 
individuals in our prisons today, as I think you and others are 
familiar, who operate their gangs from inside the walls of 
prison.
    So while there may not be the opportunity to escape, there 
may still be the risk, as we have seen----
    Mr. Nadler. We have a very----
    Mr. Mueller [continuing]. Operating.
    Mr. Nadler. We have a number of Al Qaida prisoners 
convicted and things like Ramzi Yousef and the sheikh, what is 
his name, from the 1990's, and planned to blow up the World 
Trade Center, planned to blow up the Holland Tunnel and so 
forth.
    We have those people in our prisons today, do we not?
    Mr. Mueller. Yes.
    Mr. Nadler. Have they presented any particular danger to 
us?
    Mr. Mueller. If you are talking about physical danger in 
terms of being able to escape and undertake an attack, no.
    Mr. Nadler. Thank you.
    Let me turn to the subject of national security letters. 
Two years ago, the IG for the Department of Justice issued her 
first report on the FBI's use of NSLs from 2003 to 2005. The IG 
made 11 recommendations for improvements.
    In the second report, last year, the IG found that a number 
of actions have not yet been taken to implement their 
recommendations.
    What is the current status of the FBI's implementation of 
the recommendations from the IG's March 2007 report? Have they 
all been fully implemented?
    Mr. Mueller. I would have to check on each one of those. I 
know we pursued every one of them. There may be one or two 
which we have a disagreement with, but I would have to get you 
the report card on each of those recommendations.
    Certainly, as soon as we have received those reports, we 
have started implementing those recommendations and, in many 
cases, to the extent that we have information about a procedure 
that needs to be upgraded or changed, we would make the changes 
in anticipation of the report and the recommendations.
    Mr. Nadler. Thank you.
    Now, as you know, there have been recent reports that--
well, actually, these were responses to questions posed to the 
FBI by the--questions posed to the FBI General Counsel Caproni 
in response to her March 2007 appearance before this Committee.
    And in her answer, provided in January, she said, ``The 
FBI''--the questions were with respect to information collected 
by NSLs, but not relevant or being no longer relevant, whether 
those would be destroyed.
    And she writes as follows, ``The FBI has legitimate 
investigative reasons for retaining information properly 
collected during the course of an authorized investigation, 
even if the data pertains to individuals who are ultimately 
determined not relevant to that investigation.''
    The answer concludes, ``The FBI does not support a policy 
that requires the destruction of data merely because, upon 
initial analysis, the person to whom it relates appears 
irrelevant to national security concerns.''
    Is the FBI saying by this answer that all NSL-collected 
information is kept indefinitely, even when the subject is not 
relevant to an FBI law enforcement purpose?
    Mr. Mueller. I think you have to put it in the context of a 
records retention policy for all investigations, whether it be 
a grand jury subpoena, whether it be records retained as a 
result of an NSL, and the records retention policy gives us 
guidelines in terms of how long we maintain those records, even 
though records may be obtained in the course of an 
investigation which proved to be irrelevant to the solution.
    It can occur in a national security investigation, it could 
occur in a kidnapping investigation, a public corruption 
investigation in which we obtain, either by grand jury or 
administrative subpoena or testimony, records that only are 
determined to be irrelevant, but we keep that according to our 
records retention policy.
    Mr. Nadler. You keep that indefinitely?
    Mr. Mueller. You keep that, sir, and I think it is 20-25 
years.
    Mr. Nadler. So you keep for 20 or 25 years----
    Mr. Mueller. Twenty years, yes.
    Mr. Nadler. You keep for 20 years information about 
innocent people, private information that you have collected in 
the course of an investigation in which it turns out they had 
nothing to do with.
    Mr. Mueller. We may well undertake an--an allegation may 
come in as to the involvement of a person in a mortgage fraud 
scheme. We go and investigate, find that that person is 
innocent, the allegation is false, we keep those records, yes.
    We have a records retention policy, which we have had for 
the 100 years of our existence, that, in some sense, requires 
us to keep the records.
    I can tell you, from the perspective of the Freedom of 
Information Act, in terms of what we have to go through, there 
are substantial records that have been maintained according to 
our records retention policy, even though it may relate to 
persons who ultimately are not indicted, are not convicted of a 
crime for which they are being investigated.
    Mr. Nadler. Thank you.
    Mr. Conyers. We now turn to our first ex-attorney general 
from the State of California, Dan Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Mueller, a number of years ago, I was in Los Angeles 
for a hearing that was, at that time, chaired by Jane Harman. 
It was a meeting of the Homeland Security Committee and it was 
specifically to investigate the issue of prison radicalization, 
at least with respect to California prisons, and we had 
testimony from people who had had experience in New York and I 
believe we may have had testimony from Federal officials.
    This was a concern with respect to hate groups, with 
respect to terrorist groups and so forth.
    Do you share that concern?
    Mr. Mueller. Yes. If I can broaden it somewhat, we 
recognize that there is a potential for radicalization in a 
number of ways, whether it be for gang activity, for terrorist 
groups, for other extremists.
    With regard specifically to terrorists, in the wake of 
September 11, we have now, I think, it is over 100 joint 
terrorism task forces around the country.
    Generally, we will have persons on the task force from 
certainly the Federal prison entities, but also may well have 
persons representing the institutions in a particular state, to 
keep our fingers on the potential for radicalization and 
prisons.
    Also, having been in San Francisco, I am familiar with 
Pelican Bay, for instance, and the concerns that one has in 
Pelican Bay, not only physically being within Pelican Bay, but 
also the operation of those outside of prison.
    Mr. Lungren. Well, that is our highest security prison and 
even there we have difficulty ensuring that those inside the 
prison don't direct actions outside the prison.
    Mr. Mueller. But on the Federal side, as well as the state 
and local side, there are intelligence efforts to assure that 
we pick up on individuals who may present threats.
    Mr. Lungren. Does the name Lynne Stewart mean anything to 
you?
    Mr. Mueller. Yes.
    Mr. Lungren. And Lynne Stewart is?
    Mr. Mueller. I believe she was involved with a radical 
group--I am having trouble----
    Mr. Lungren. Well, she was a defense attorney representing 
the blind sheikh.
    Mr. Mueller. Ah, yes, that is----
    Mr. Lungren. And I believe she has been convicted of 
Federal offenses relating to being a conveyor of information 
from the blind sheikh inside the prison setting to those 
outside.
    Does that refresh your recollection?
    Mr. Mueller. Yes.
    Mr. Lungren. You don't have to state an opinion on that, 
but to me, that gives reality to the concerns some have about 
increasing the number of terrorists that we have on our shores, 
whether they are in prison or out of prison.
    I want to give you a hypothetical. If, hypothetically, some 
who are currently in Guantanamo were to come here to an 
incarceration facility and then, in accordance with a Federal 
judge's decision that they be released, they would have to be 
released in this country, because the country of origin would 
not take them, under those circumstances, would the FBI view 
those individuals as suspected terrorists or people that you 
would have to keep an eye on while they are in the United 
States?
    Mr. Mueller. I am not certain it is a hypothetical, but in 
the sense that----
    Mr. Lungren. Well, I am, because I am not going to 
presuppose that a Federal judge would do something like that, 
because we know they have great respect for the executive 
branch. Under those circumstances.
    Mr. Mueller. I think, generally, to the extent that persons 
who have some background in either supporting, facilitating or 
training with terrorists, it would present a concern to which 
we would utilize--maximize our efforts to minimize and mitigate 
that concern, whether it be by surveillances or wires or other 
efforts to assure that we have minimized that concern.
    Mr. Lungren. I appreciate that, because I think the 
American people ought to understand that some people held at 
Guantanamo Bay are most likely not subject to criminal 
prosecution. We are not holding them for that purpose.
    We are holding them because they are combatants in the 
traditional definition of combatants and under the rules of 
war, you have the right to hold them until the cessation of 
hostilities.
    However, we have had some Federal judges who take a 
different position. Therefore, you could have the possibility 
of someone coming into the United States by access to the 
Federal courts, making the argument that they are not subject 
to criminal prosecution, a Federal judge saying you could not 
hold them indefinitely, and, therefore, allowing them out, and 
a foreign country not receiving them.
    And we have limitations as to how long we can keep someone 
like that incarcerated before they must go out in the public 
domain.
    And so while I gave you a hypothetical, I think people 
ought to realize that is a legitimate concern that we in 
Congress ought to deal with.
    And I thank you very much, Mr. Chairman.
    And I thank you, Mr. Director, for your time and your 
service.
    Mr. Conyers. Thank you.
    The Chair of the Crime Subcommittee, Bobby Scott of 
Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Director, for being with us.
    You mentioned financial crimes, health care, specifically. 
There are other, of course, financial crimes, ID theft, the 
securities fraud. We have had a lot of Ponzi schemes revealed, 
organized retail theft, which are essentially financial crimes, 
and, of course, the mortgage fraud.
    We have testimony that there are only about 250 FBI agents 
with accounting backgrounds assigned to the mortgage fraud 
case, whereas approximately 1,000 were assigned to the savings 
and loan debacle a few years ago, which was only one-third the 
size.
    We just recently passed legislation that would give you 
resources to hire additional agents to address financial fraud.
    Can you provide us with your capacity needs in terms of 
accountants so that we can address these financial crimes?
    ID theft is going on now, to a large extent, because nobody 
thinks they are going to get caught. If you do the legwork, you 
can investigate and prosecute those cases, but, basically, they 
are just--the credit card company wipes it off, there is nobody 
complaining, and the people continue their fraudulent 
activities.
    Can you give us an idea of your capacity needs to address 
all of these areas of financial misdeeds?
    Mr. Mueller. Yes, I would be happy to do that. I will say 
that we have--you are accurate in terms of those on mortgage 
fraud, we have 260 agents. We have another 100-plus agents on 
corporate fraud and another 150 on securities fraud.
    But we did have, at the height of the savings and loan 
crisis, almost 1,000 agents addressing this.
    We would be happy to provide that material. There was, in 
the stimulus package that came from the Senate, a bill which 
would have accorded us an additional 165 special agents to 
address this, but did not last and is not part of the 
legislation.
    But we will be happy to provide you with a recitation of 
the needs that we feel we--or the numbers we would need in 
order to fully address the issue.
    Mr. Scott. We have legislation on the way to the President 
that would authorize additional funding. So hopefully we can 
address that.
    You are familiar with the Federal Prison Industries.
    Mr. Mueller. Yes.
    Mr. Scott. Do you view that as a positive program that 
helps reduce recidivism?
    Mr. Mueller. Yes.
    Mr. Scott. Thank you.
    Backlog and DNA kit. As you know, particularly in New York 
City, there are thousands of untested DNA samples, which means 
that cases are not being prosecuted and people aren't being 
caught.
    Can you give us an idea of what we need to provide you in 
terms of resources to eliminate the DNA backlog?
    Mr. Mueller. Let me address it to you and, also, 
Congressman Schiff, I know, has asked questions in the same 
area.
    If I recall correctly, last week, the question put by 
Congressman Schiff to the Attorney General related to the fact 
that we got additional moneys, $30 million.
    We had made an assertion that with that $30 million, we 
would have reduced our backlog from the convicted offender 
program by, I think, January 1 or December of this year.
    We got the $30 million, but we did not get our budget to 
March. And so the personnel that are reflected in that $30 
million, along with the technical equipment we need, we now 
have and my expectation in reducing the backlog on the 
convicted--putting samples into the convicted offender program 
will be June 1 of next year.
    It has been 6 months because of basically the budget delay. 
But we will have, I believe, by this time next year, by then, 
have additional persons, but, also, technological improvements, 
reduce that backlog.
    We do have a caseload backlog. Most of that caseload 
backlog relates to missing persons, and I would be happy to get 
you additional numbers on that backlog.
    When it comes to New York or Los Angeles or other cities 
where there is a backlog of rape kits, it generally is where 
the police departments utilize either private laboratories, 
state laboratories or municipal laboratories, and those--unless 
they are a Federal case, we generally do not handle them.
    Mr. Scott. I wanted to get in one more question before time 
goes out, and that is on the issue of torture.
    Can you tell us what participation there was by FBI agents 
in enhanced interrogation techniques that everybody in the 
world, other than a few people in the last Administration, 
viewed as torture, what participation there was by FBI agents?
    Mr. Mueller. We followed our protocol, which does not 
include coercion of any kind.
    Mr. Scott. And what does that mean in terms of your 
participation in what was going on?
    Mr. Mueller. We did not participate in the--except for 
maybe an isolated incident, relatively minor, one or two, we 
did not participate in the use of those techniques, enhanced 
interrogation techniques.
    Mr. Scott. Is that because you concluded that they were 
illegal?
    Mr. Mueller. I would not say that it was because it was 
illegal. I would say because we felt it was necessary to follow 
our own protocols. We believe that our protocols work and are 
effective and given the work that we do, our protocols were 
appropriate to the work we were asked to do.
    Mr. Conyers. The Chair recognizes Howard Coble of North 
Carolina, a senior Member of Judiciary.
    Mr. Coble. Thank you, Mr. Chairman. Mr. Chairman, I had to 
go to a piracy hearing. I am sorry I am late getting here.
    Mr. Director, good to have you with us.
    Mr. Director, last week, the Attorney General testified 
before this Committee and I posed a question, as did a couple 
of my colleagues, regarding the organized retail crime problem.
    According to the North Carolina Retail Merchants 
Association, the FBI, in conjunction with several other law 
enforcement agencies, successfully apprehended and charged 
individuals involved in three alleged fencing operations in 
western North Carolina.
    I am told that future operations may be severely affected 
because of resources or lack of resources.
    Will the FBI continue to pursue these cases and are you 
able to comment on whether the U.S. attorney intends to 
prosecute the individuals in these three cases?
    Mr. Mueller. I am not in a position to say what the U.S. 
attorney would do.
    In terms of resources, we are--as I have indicated 
previously, we have to prioritize and the retail fraud is down 
on our list of priorities.
    We try to leverage our capabilities and work closely with 
state and local law enforcement. And so quite probably, if 
there is a need in a particular jurisdiction to address a 
particularized threat, then we would participate and help our 
state and local law enforcement authorities to address it.
    I am not familiar with those three cases, be happy to get 
back to you in terms of what happened in those cases and 
whether or not it is likely that we will be participating in 
additional such cases.
    Mr. Coble. If you could, I would appreciate that, because 
as you know, it is a problem that just plagues the retail 
community very severely.
    Mr. Director, I am told that the bureau currently operates 
18 regional task forces and 47 working groups to investigate 
mortgage fraud.
    Can you update the Judiciary Committee on all the bureau's 
efforts to combat mortgage fraud specifically, but other types 
of fraud, as well?
    Mr. Mueller. Well, as I believe I indicated either in my 
written remarks or my opening remarks or in response to other 
questions, we have over 2,400 mortgage fraud cases, we have 260 
agents that are addressing those; over 580 corporate fraud 
cases, of which over 40 of those relate to the subprime 
mortgage industry, with 113 agents; and, over 1,300 cases of 
securities fraud, with 158 agents.
    We have a total of almost 530 agents working in this field. 
Many of them are accountants. They are backed up by accounting 
technicians, intelligence analysts and professional staff.
    As you pointed out, we have a number of task forces. We 
have 18 and then another 47 working groups. We have requested 
additional resources in the budget submissions and our hope is 
to improve on that.
    I will say, over a period of time, we have been very 
successful in our investigations and prosecutions. What we have 
to do is prioritize and expedite those investigations and 
prosecutions to have the maximum deterrent effect.
    We prioritize them. We want to make certain that the most 
culpable are prosecuted swiftly and quickly and are serving 
time in jail.
    We have reached out to the--with the anticipation of 
additional frauds as a result of the TARP program and other 
programs, we have reached out to the inspector generals to put 
into place recordkeeping systems that will enable us to better 
investigate.
    I met with the new director of the securities commission, 
Mary Schapiro, this last week to coordinate better our works 
with the Securities and Exchange Commission, and my expectation 
is, working together, that we will continue our successful 
investigations and prosecutions. It is a question of resources.
    Mr. Coble. Thank you, sir.
    Mr. Director, I assume that mortgage fraud is generally 
regarded as a Federal offense, is it not?
    Mr. Mueller. Yes.
    Mr. Coble. I thank you, sir. I thank you for your service 
and thank you for being with us.
    Mr. Mueller. I will say, though, that part of our approach 
in addressing this is it is not only a Federal offense, but 
often is a state and local offense, and we want to make certain 
that if, for some reason, we do not take on the Federal side, 
that state and local law enforcement work closely with us and 
take it on the state and local side.
    Mr. Coble. And I repeat, thank you for your service, for 
being here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Conyers. Mel Watt is a senior Member of the Committee, 
Chairman of the Finance Subcommittee, and a past Chairman of 
the Congressional Black Caucus.
    Mr. Watt. Thank you, Mr. Mueller. Thank you for being here.
    I want to try to get to three different areas, if I can.
    First of all, we have had, as a very practical question 
that I will set up like this, we have had a major spike in my 
district offices of complaints about mail fraud and scams on 
seniors that essentially involve calls from out-of-state 
sources saying that they have won some lottery or ``pay me X 
number of dollars to go and find this big bucket of money for 
you.''
    And local law enforcement can't handle that, nor can state 
law enforcement handle it, because the calls are coming from 
out of state.
    I was on the phone recently with some gentleman in San 
Francisco professing to be a customs officer with the Federal 
Reserve is what he represented to me.
    As a member of the Financial Services Committee, I 
immediately contacted the Federal Reserve to find out whether 
this person existed. He didn't exist. He was representing, in 
fact, to my mother that she had won some big pot of money.
    My practical question is under those circumstances, what is 
the best way for me to get you all engaged when we have a 
specific complaint in our district offices?
    Mr. Mueller. It is your local FBI office. Just pass it on 
to the local FBI office. There is a complaints agent who is 
there during the day, will take the complaint and follow up.
    What you find is--what we find in these scams, and there 
are a number of them out there and it is not just a customs 
officer from the Federal Reserve, they use the FBI and they use 
me, amongst others.
    Mr. Watt. Right.
    Mr. Mueller. And what we try to do is accumulate them, 
identify the persons responsible, and then pursue them 
federally, if it all possible.
    Mr. Watt. Well, I have a name and a phone number for you, 
and I will get it to my local.
    But I am telling you that because of the allocation of 
resources that you just discussed with Representative Scott and 
Representative Coble, the reallocation of resources to 
terrorism, antiterrorism, which is important, a lot of these 
things just are not getting priority and they are on the 
increase.
    So I hope that you all are going to aggressively seek more 
agents to do domestic kinds of situations.
    I am not suggesting that we can fall back on our efforts to 
protect our citizens from the homeland security and terrorism 
concerns that are going on around the world or in the United 
States, for that matter, but these things are real to people 
every day, and, particularly, seniors are vulnerable to those 
kinds entreats.
    And if you don't pursue them, they just proliferate and get 
bigger and bigger, and some big case needs to put some of these 
people in jail so that there will be a deterrent effect.
    Let me go on to the second issue, which is--I wasn't going 
to ask about this, but Jerry Nadler asked you about record 
retention policies and it sounded to me like you are following 
a 100-year-old record retention policy that may or may not be 
justified.
    How aggressively have you, as the FBI director, looked at 
the rationale of this 100-year-old policy that you are 
following and evaluated whether it makes sense to keep records 
on people for 25 years who are not engaged in anything?
    That increases the demands that you have to meet under the 
Freedom of Information Act. If you don't have the files or you 
have gotten rid of them, no records there to be providing.
    How aggressively have you looked at this policy and 
reevaluated it?
    Mr. Mueller. I have not looked at it hard. I am not sure it 
is 100 years old. It is certainly many years old.
    Mr. Watt. Well, that is what you testified. That was your 
testimony. It wasn't my testimony.
    Mr. Mueller. I am walking back from maybe 100 years. It has 
been there, I believe, on the books for a long time and it may 
well be, and I would have to look at it, a combination of the 
rules for records retention that have been set by the 
government and archives, as well as our own internal rules.
    But I will go back and look at it, and we will get back to 
you on that particular issue.
    Mr. Watt. Thank you.
    I wanted to ask about some discrimination issues, but my 
time has expired.
    I want you all to take care of my mother, first of all. So 
I will talk to your local people about that.
    Mr. Mueller. Well, you can give us the number, if it is 
your mother.
    Mr. Watt. That is my number one constituent.
    Mr. Mueller. Go talk to the local person.
    Mr. Watt. I don't get but one of those. Thank you.
    Thank you, Mr. Secretary.
    Mr. Conyers. The Chair recognizes Darrell Issa, who is, in 
addition to Judiciary Committee, the number two man on the 
Government Reform Committee, as well as an active participant 
on the Intelligence Committee.
    Mr. Issa. Thank you, Mr. Chairman. You can revise and 
extend, if you would like.
    I think I will quite while I am ahead there.
    Director Mueller, I have got a couple of questions, some of 
which go to your predecessor, some are yours.
    But the FBI is present at Gitmo, correct?
    Mr. Mueller. Yes.
    Mr. Issa. And has been the entire time.
    Mr. Mueller. We have had agents rotating through, yes, for 
almost the entire time.
    Mr. Issa. And the FBI has presence virtually every place we 
have an embassy in the world, correct?
    Mr. Mueller. We have over 60 legal attache offices around 
the world.
    Mr. Issa. Okay. Well, maybe not virtually, but all the 
places I hate to go to.
    The Administration made a determination to do this enhanced 
interrogation technique or now is commonly one of--one of the 
techniques being waterboarding.
    When were you first made aware of it and when was the FBI 
first made aware of it overall?
    Mr. Mueller. I believe I first became aware of the use of 
enhanced interrogation techniques sometime in the summer of 
2002 with an agent who was involved in an interrogation 
overseas who indicated that additional techniques beyond what 
we traditionally do would be used.
    We determined that it was not appropriate for him to 
continue in the conduct of that particular interrogation.
    Mr. Issa. Was that agent, in 2002 or at the time that you 
became aware of it in 2002, was he present for that 
interrogation that included waterboarding or other enhanced 
interrogation?
    Mr. Mueller. And I do not believe that I became aware of 
waterboarding, as such, until several years later, and I don't 
believe--well, I don't--I can't say really what that agent 
knew, but certainly those were not the enhanced techniques that 
we, at that time, anticipated were going to be used and 
triggered the withdrawal of him from that particular 
interrogation.
    Mr. Issa. Okay. Earlier, you mentioned that once or twice. 
Was that one of the once or twice that your organization was 
involved in techniques that would qualify as enhanced 
interrogation?
    Mr. Mueller. No.
    Mr. Issa. What were the once or twice?
    Mr. Mueller. Can you excuse me just 1 second?
    Mr. Issa. Certainly.
    Mr. Mueller. The inspector general did a report and what I 
am trying to do is recall from the inspector general's report a 
couple of instances where he said that, I think, a prisoner's 
hands were handcuffed behind him and he was given water in a 
dribble.
    It was treatment that is not a treatment that we ordinarily 
would use, but it is certainly not in the category of the 
enhanced interrogation techniques that we have been talking 
about.
    I just wanted to be clear that the IG, in his report, had 
pointed out two instances where we could have done a better 
job.
    Mr. Issa. Okay. Has the FBI ever given people large amounts 
of water and then told them to wait to go to the bathroom, that 
it wasn't available right now?
    Mr. Mueller. Not to my knowledge.
    Mr. Issa. Left lights on deliberately to deny people sleep 
or rest?
    Mr. Mueller. I can't say for sure, but I have no knowledge 
of such treatment. That would go against our protocol.
    Mr. Issa. Okay. So each and every one of those techniques 
that has now become public for enhanced interrogation would be 
inconsistent with what the FBI would ever allow to be done.
    Mr. Mueller. Yes.
    Mr. Issa. The next one is a little more serious. The 
speaker of the House has alleged that the CIA outright lied to 
her.
    Is lying to Congress a crime?
    Mr. Mueller. Yes.
    Mr. Issa. Are you investigating that allegation by the 
speaker of the House?
    Mr. Mueller. No.
    Mr. Issa. Why not?
    Mr. Mueller. The process that is followed generally is that 
we have a referral--not we--the Justice Department obtains a 
referral from Congress.
    The Justice Department makes a determination as to whether 
or not the referral warrants further investigation, and then we 
are called upon to conduct that investigation.
    Mr. Issa. I am a Member of Congress. If CIA is lying to any 
of us, and I have been briefed many times by them on the 
Intelligence Committee, it puts me in a position of not being 
able to do my job properly.
    Would you say I have standing to ask you to investigate 
whether the CIA has lied to any or all of us?
    Mr. Mueller. I am not familiar with the intricacies of the 
referral process that has been established in such 
circumstances.
    I know that generally it is triggered by a referral from 
Congress to the Justice Department and then we do the--may well 
be--others can be asked, but generally we are asked to do the 
investigation.
    Mr. Issa. Well, then, with my remaining time, I would 
assert that I believe I should have standing, that I am in 
doubt as to whether or not, unresolved, I can believe in the 
briefings that I am receiving from the IT community, and would 
ask you to investigate it and ask you to respond as to whether 
you believe that my standing and my asking you to do it 
represents a proper referral or one that at least you can 
follow up on.
    Mr. Mueller. We will take what you have indicated, sir, and 
pass it to the Department of Justice and then follow the 
directives of the department.
    Mr. Issa. I will look forward to your response. Thank you.
    Mr. Mueller. Thank you, sir.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Conyers. The Chair of the Committee on Immigration, 
from California, Zoe Lofgren.
    Ms. Lofgren. Well, thank you, Mr. Chairman.
    It is good to see you, Director Mueller, and thank you for 
your testimony today.
    It is good news that you have continued your march forward 
with technology, but the march forward with technology also 
raises questions. And I wanted to briefly touch on the 
investigative data warehouse data mining issue that both the IG 
and the Electronic Frontier Foundation have recently discussed.
    It is my understanding that there are just shy of a billion 
individually identifiable pieces of information in the data 
warehouse, which, by way of comparison, I think the Library of 
Congress has about 138 million pieces in its collection.
    So it is a massive amount of data. And there may have been 
litigation on this. You can tell me if that is correct. But I 
believe that the FBI would be required to publish a systems of 
record notice and a privacy impact assessment related to this 
data warehouse, and that that has not been done.
    Can you tell me anything about the privacy notices and 
whether those are planned or if they haven't been planned, why 
not?
    Mr. Mueller. We try to be very careful, in terms of 
whenever we put a new system online or contemplate it, assuring 
that we go through all the steps with notification.
    If you are talking about the investigative data warehouse, 
it is----
    Ms. Lofgren. I am.
    Mr. Mueller [continuing]. It is a compendium of our case 
files, which has grown up since September 11 in a different 
format, a different--different servers, we have different 
software, and different type of relational databases. That 
enables us to search it better than the old VCS.
    I will have to check in terms of privacy notices on the 
data, investigative data warehouse. It has been online for a 
number of years, but it is our case file system.
    Ms. Lofgren. Well, doesn't it have 58 different sources of 
data, including----
    Mr. Mueller. It may well.
    Ms. Lofgren [continuing]. US-VISIT and a variety----
    Mr. Mueller. Well, I am not certain which dataset you are 
talking about. The investigative data warehouse, I am thinking 
one thing. It may be that you are thinking about the records 
that are obtained by the foreign terrorist tracking task force, 
which looks at individuals coming into the country and utilizes 
other private companies that already have data to locate 
persons within the United States, which is different than the 
investigative data warehouse, which is where we house most of 
our data.
    I would have to get back to you in response to those 
specific questions, to make sure I know which database you are 
talking about.
    Ms. Lofgren. Yes, it is the investigative data warehouse. 
And it is my understanding that it includes 58 sources, 
including SEVIS and US-VISIT and the no fly list, and a whole 
variety of other items.
    And if you want to get back to me, that is absolutely fair. 
But could I look to a particular time by which you will get 
back?
    Mr. Mueller. Two weeks.
    Ms. Lofgren. I would appreciate that very much.
    Let me move on to another subject, which is the whole--and 
you mentioned it briefly in your opening statement--the 
situation of concern at the border.
    Two years ago, I and a bipartisan group of Members went to 
Mexico City and we met with the Mexican attorney general and 
some of their law enforcement people, and they expressed 
extreme concern over what the United States was not doing in 
terms of the flow of guns from the United States to Mexico, as 
well as a less than aggressive effort, they felt, to track 
money laundering in the United States.
    I think that there has been recent attention, we are 
ramping up our efforts. But can you tell me--I don't want you 
to jeopardize an investigation--but how many ongoing 
investigations do we have now into both the gun running issue, 
as well as the drug money laundering issue?
    Mr. Mueller. Well, the guns flowing from North America to 
South America----
    Ms. Lofgren. Correct.
    Mr. Mueller [continuing]. From the United States into 
Mexico is generally in the purview of ATF. And as you say, they 
have ramped up. We are going to get additional ATF agents to do 
that.
    Ms. Lofgren. I thought there were joint task forces 
underway.
    Mr. Mueller. We do and we participate in task forces along 
the border and whenever there are guns involved, we bring in 
ATF, because they not only have the expertise, but the 
databases that we all use.
    We also, though, from our perspective, have increased 
personnel addressed to cross-border kidnappings, individuals in 
the United States who travel to Mexico, they may have family, 
they may have businesses down there, are kidnapped and the 
victims' families are in the United States. We have ramped it 
up in places like San Diego and El Paso.
    Ms. Lofgren. And Phoenix, I assume.
    Mr. Mueller. Pardon?
    Ms. Lofgren. Phoenix, as well?
    Mr. Mueller. And Phoenix, yes, but the phenomenon there is 
a little bit different than in San Diego and El Paso. Phoenix 
is--they have a very high rate of home invasions and the like 
and, yes, we work on task forces there.
    The other step that we have taken is to combine our 
intelligence capabilities along the border along with EPIC. So 
that our field offices, our legal attache office in Mexico has 
access to the information relating to border crime immediately 
as opposed to coming back through headquarters and is linked up 
with EPIC, the El Paso Intelligence Center, to give us a much 
more effective view of what is happening along the border.
    Ms. Lofgren. My time has expired, Mr. Chairman.
    Thank you, Director.
    Mr. Conyers. The gentleman from Iowa, Steve King, Ranking 
Member on Immigration.
    Mr. King. Thank you, Mr. Chairman. I appreciate being 
recognized.
    And, Director, I appreciate your testimony and I think it 
reflects the long service to this country and the significant 
depth of knowledge that has been built upon that experience.
    And I would--based upon that, I would ask you if you are 
familiar with 18 USC 47, 1001, which reads, in part, ``Whoever, 
in any matter, knowingly and willfully falsifies, conceals or 
covers up, by any trick, scheme or device, a material fact, 
whoever makes any material false, fictitious or fraudulent 
statement or representation shall be imprisoned not more than 8 
years.'' That is in part.
    Do you at least have some basis of knowledge that would 
reflect that section of the----
    Mr. Mueller. I am familiar with 1001, yes.
    Mr. King. And I reiterate this, because would you--would 
you view that to be at last a statute that you would review if 
you were to respond affirmatively to Mr. Issa's request?
    Mr. Mueller. I believe the prosecutor is looking at this. 
Department of Justice attorneys would look at 1001, absolutely, 
as a possible statute to be applied.
    Mr. King. And with your long and deep experience, and we 
have, I think, about 15 members of the intelligence community, 
their sense of integrity in their office, when their integrity 
is challenged, can you tell us what happens to the morale if 
that should continue, if their integrity is challenged?
    Mr. Mueller. Well, I understand the import of the question 
and, generally, I will speak very generally, of course, in any 
institution in which there has been a challenge to the 
effectiveness, efficiency, integrity of the department, it does 
affect morale.
    Mr. King. And if someone challenges the integrity of your 
agency or any other, is it likely that there would be people 
within your agency that would volunteer to do a briefing to 
that person?
    Mr. Mueller. Well, all I know, part of my responsibility is 
to represent my agency fully and appropriately, I admit 
mistakes when the mistakes happen and move forward, and to also 
speak out when you think that your detractors are off base.
    Mr. King. And should there be a reluctance to provide that 
briefing to whichever individuals would have security 
clearance, could that potentially impact negatively on our 
national security due to that lack of information and perhaps 
lack of appropriations and perhaps policy changes that might 
flow from that relationship that could be interrupted or 
distrusted because of the allegations?
    Mr. Mueller. I am sorry, sir. I am not familiar with the 
predicate of the question in terms of briefing.
    Mr. King. I am seeking to ask the question hypothetically, 
and so it maybe sounds a little vague and I will try to keep it 
hypothetical, Director, for the benefit of everyone in this 
room.
    But when that relationship of trust is severed, then the 
working relationship would, I think, certainly be damaged. And 
are you concerned that it could affect our national security?
    Mr. Mueller. I can't answer that hypothetical, sir.
    Mr. King. I understand, Director, and I think that you do 
understand my question.
    Let me move--let me, first, join Mr. Issa in his request, 
if two are better than one. I would ask you to look into the 
basis that you have responded to Mr. Issa and I won't ask you 
to respond to that question again to me.
    But I would like to take this down to Gitmo and ask you 
instead, of the techniques that have been used to interrogate 
the Gitmo detainees, are you aware that there were any 
techniques used there that were more severe than we have used 
in training of our own special forces?
    Mr. Mueller. I don't think I have sufficient knowledge to 
answer the question, sir.
    Mr. King. Well, do you have any indication otherwise?
    Mr. Mueller. I don't have sufficient knowledge to answer 
the question.
    Mr. King. Do you have any indication that the PATRIOT Act 
has violated anyone's civil rights--been utilized to violate 
someone's civil rights?
    Mr. Mueller. I don't believe so, but I must also say that 
without--and put in context--that when it comes to NSLs, in 
particular, NSLs, they were issued improperly.
    Now, I don't want to parse words in terms of--but I don't 
want you to think that that is not a concern of ours, was not a 
concern of ours, and I do believe it was remedied, but that was 
a concern, because it does affect civil liberties, it does 
affect the privacy interests of individuals.
    Mr. King. Was there anything done at Gitmo that would be 
criminal if it was done in the United States?
    Mr. Mueller. I can't answer that question, sir.
    Mr. King. I thank you, Director.
    And I yield back the balance of my time.
    Ms. Lofgren. [Presiding.] The gentleman yields back.
    I would recognize now the gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. Yes, thank you.
    Welcome, Mr. Director.
    Recently, there has been considerable discussion about 
Guantanamo and a group of detainees that are Uighurs, Chinese 
Muslims. And there has been the use of the term ``terrorist'' 
as it relates to these Uighurs.
    And I have a concern that that is an unfair label and some 
have indicated that that label came about as a result of 
communist Chinese intelligence, which, I would submit, is 
extremely suspect given the history of suppression by the 
Chinese Communist government as it relates to that particular 
minority.
    There was a report issued in May of 2008 by the Department 
of Justice inspector general, and I am going to read an excerpt 
to you and ask you to respond.
    ``Another FBI agent,'' and, again, I am reading from the IG 
report, ``Another FBI agent stated in his survey response that 
several Uighur detainees were subjected to sleep deprivation or 
disruption while being interrogated at Camp X-Ray by Chinese 
officials prior to April 2002.
    Chinese officials visited Guantanamo and were granted 
access to these detainees for interrogation purposes. The agent 
stated that he understood that the treatment of the Uighur 
detainees was either carried out by Chinese interrogators or 
was carried out by U.S. military personnel at the behest of the 
Chinese interrogators.''
    Are you familiar with the report of Mr. Fine and are you 
familiar with this report emanating from an FBI agent?
    Mr. Mueller. Now that you read the excerpt, Congressman, I 
think it was from the report that the inspector general did on 
the FBI's interrogation or interviewing techniques.
    And I would check one thing, if I might.
    Mr. Delahunt. Please.
    Mr. Mueller. It is a report, I believe, that was done on 
our interviewing/interrogation techniques. I am not familiar 
with the incident other than what is in the IG report.
    Mr. Delahunt. The IG report is, obviously, based on a 
report by an FBI special agent.
    Mr. Mueller. Apparently.
    Mr. Delahunt. And you would not contradict that report.
    Mr. Mueller. I have no knowledge of the incident, so I 
cannot contradict the report.
    Mr. Delahunt. Okay, but it is in the report and it is a 
statement by one of your agents that Chinese Communist 
intelligence agents were allowed to interview Guantanamo 
detainees. That is their statement according to the IG report, 
as you understand it.
    Mr. Mueller. In the IG report, the investigators for the IG 
must have talked to an agent and that is what they wrote down 
with regard to what the agent told them.
    Mr. Delahunt. Mr. Director, myself and several other 
Members of Congress would prefer to have some briefing done by 
the FBI regarding this particular issue, and I know I would 
like to have an opportunity to interview the FBI agent that 
actually wrote this report and would make that request to you, 
so that we can actually make a determination as to the status 
of the Uighur, because there was another report that was done 
by another FBI agent, and I want to read it into the record, if 
the Chair will indulge me for another minute.
    I am reading, again, reading from that report, ``The 
Uighurs are moderate Muslims who occupy east Turkistan, which 
was taken over by the Chinese. The Uighurs would often land in 
Afghanistan in order to gather personnel opposing Chinese 
suppression.
    They were often inspired by Radio Free Asia. The Uighurs 
considered themselves to be fighting for democracy and they 
idolized the United States. Although the Uighurs are Muslim, 
their agenda did not appear to include Islamic radicalism.
    They claim to have no political connection to Islamic 
terrorists or the Taliban. However, their camp in Afghanistan 
was bombed and they fled to Pakistan. The Uighurs were captured 
by the Pakistanis, with half being transferred to the U.S. and 
half being remanded directly to the Chinese.
    It was alleged that the Uighurs who were transferred 
directly to the Chinese were immediately executed. The Uighur 
detainees at Guantanamo were convinced that they would be 
immediately executed if they were returned to China.''
    And I would also note that it is a matter of public 
knowledge that they were captured not by American soldiers. In 
fact, they were apprehended by Pakistanis, who, in turn, 
received a $5,000 bounty for each of these Uighurs that were 
turned over to the Americans and, presumably, to the Red 
Chinese, who allegedly executed them upon their release.
    I suggest this is a very, very important issue, because 
questions are being raised, statements are being made, and I 
dare say we don't really know the truth yet.
    And I think before we find ourselves in an embarrassing 
situation, and I am, again, referring to Members of Congress, 
that we ought to have a thorough review, and I think the FBI, 
your credibility, and, again, I think the excellent record of 
the FBI in terms of Guantanamo ought to lead this investigation 
and provide information.
    Ms. Lofgren. The gentleman's time has expired.
    I would turn now to Mr. Franks.
    Mr. Franks. Well, thank you, Madam Chair.
    And thank you, Director Mueller.
    I would say to you, sir, that the way you have comported 
yourself with the hearing this morning affirms the conclusion 
that many of us have held in the past that you have personified 
public service and your patriotism and your professionalism, 
and I appreciate you being here.
    Mr. Mueller. Thank you, sir.
    Mr. Franks. Attorney General Holder was here before our 
Committee last week and, in my judgment, he seemed to have a 
difficult time articulating what a terrorist really is, and 
that concerns me, since he is the lead law enforcement official 
in the country, charged with protecting us from terrorists.
    And I was struck to find out that someone in the Obama 
administration, however, seems to have no difficulty in 
articulating what a terrorist is, and that is the director of 
Homeland Security, secretary of homeland security, Janet 
Napolitano, the former governor of my state.
    Ms. Napolitano was the subject of controversy after the 
Department of Homeland Security threat assessment report, 
entitled ``Right Wing Extremism,'' was made public in April of 
2009.
    Now, the report indicated several factors, including the 
election of the first mixed President in the person of Barack 
Obama, perceived further gun control measures, illegal 
immigration, the economic downturn beginning in 2008, 
disgruntled military veterans' possible vulnerability to 
recruitment efforts by extremist groups, as risk factors for 
right-wing extremism.
    Then it kind of went on to explain and define right-wing 
extremism in roughly general terms, like opposing restriction 
on firearms or opposing lax immigration, opposing the policies 
of the Obama administration the expansion of social programs, 
opposing continuation of free trade agreements, paranoia of 
foreign regimes, fear of communist regimes, fear of one-will 
governments, and bemoaning the decline of U.S. stature in the 
world.
    Now, Mr. Director, not to be tongue-in-cheek here too much, 
but that includes about 70 percent of my district and I am 
concerned, since this report was directed to law enforcement 
agencies, which I presume means the FBI, as well, I am 
concerned how the FBI might interpret this report.
    I mean, should my district be concerned at this point, 
being the subjects of concern on the part of the FBI as 
potential right-wing extremists?
    Mr. Mueller. I don't believe so at all. We open 
investigations where we have allegations that a person may be 
involved in violent extremist or illegal activity.
    That covers a number of various groups of individuals, but 
the predicate is illegal activity and, generally, it is violent 
extremism, and I don't believe the intent of the report was to 
paint with such a broad brush.
    But I do not believe that the question is should persons be 
concerned about our undertaking investigations against 
individuals who are exercising, rightfully so, their first 
amendment privilege or rights under the Constitution. I do not 
believe so.
    We take that exceptionally seriously. When it looks like 
one of our investigative actions will implicate the first 
amendment, we have a series of reviews that have to be done to 
assure that the actions taken are appropriate to the 
circumstances, and I believe that was the intent of the piece 
from the Department of Homeland Security.
    Certainly, it is our intent in each of our investigations 
to assure that we don't trespass on the first amendment right 
without the appropriate, adequate predication.
    Mr. Franks. Thank you, sir.
    Let me shift gears then. We had testimony before this 
Committee regarding our terrorist surveillance program that 
people within the United States boundaries don't really need to 
be fearful of surveillance.
    One of the parts of the testimony was that even if Osama 
Bin Laden was in a downtown hotel making calls, that we 
couldn't--and we knew it was him, but we couldn't monitor his 
calls without a warrant.
    And I think because he is here in--if he was here in the 
United States, I think that makes sense, to me. I think that 
comforts me a great deal.
    I guess my question to you, sir, is under the new 
Administration, has the practice or the policy related to 
terrorist surveillance changed to any appreciable degree and 
are you concerned that citizens either in the previous 
Administration or this Administration need to be concerned 
about their private phones being tapped here in this country?
    Mr. Mueller. No. As all are well aware, the FISA statute 
was amended a year or so ago and it answered a number of the 
issues we have, particularly with regard to the interception of 
conversations by individuals overseas talking to other persons 
overseas who are not American citizens. And it addressed, I 
believe, a difficult issue and resolved that.
    I have seen no change in terms of the approach to the FISA 
statute, any difference in this Administration than I saw in 
the past Administration.
    Mr. Franks. Well, thank you for your service, sir. Thank 
you very much.
    Thank you, Madam Chair.
    Ms. Lofgren. The gentleman yields back.
    I would recognize Mr. Cohen at this time.
    Mr. Cohen. Thank you, Madam Chair.
    Director, you have done, I think a marvelous job and you 
have a great reputation on the Hill, but your activities are so 
abundant, your areas of investigation, from counterterrorism, 
which you kept concentrating on, and counterintelligence to the 
traditional FBI days of criminal activities.
    Do you think that the FBI has grown so much that maybe it 
needs to have two different bureaus, one for homeland security 
and counterterrorism and counterintelligence and all these 
areas, our borders, and another for the criminal section?
    Mr. Mueller. For approximately 2 to 3 years now, we have 
had essentially a criminal branch and a national security 
branch. The national security branch is counterterrorism and 
counterintelligence, and the directorate of intelligence.
    In the criminal branch, we have the criminal division, we 
have the cyber division. And I am probably missing one or two, 
but there has been that development of two branches, we call 
branches, not the bureau, as you say, for the focus on national 
security, on the one side, and the criminal programs on the 
other side.
    Mr. Cohen. You don't believe that it would be beneficial 
possibly to have two different distinct offices. You think that 
them coming under one umbrella is the most efficient way to 
operate.
    Mr. Mueller. Absolutely, and, increasingly, in this 
globalized world, terrorism cuts across--money laundering cuts 
across cyber issues. Terrorists are funded through narcotics 
trafficking in Colombia and Afghanistan.
    Mr. Cohen. Let me ask you about narcotics trafficking, and 
I think I asked you about this last year.
    The war on drugs has gone on since, I think, President 
Nixon coined the term maybe and maybe since Harry Anslinger, 
and we haven't become more successful. I mean, if it goes back 
to Anslinger, it is like 80 years and we are zero and 79 and 
winning.
    Do you feel we are any closer to winning the war on drugs, 
based on all of the problems with Mexico and the cartels and 
the fights over our border and the drugs being imported from 
Mexico, than we were last year?
    Mr. Mueller. Well, whether you call it a war on drugs or 
some other term, I mean, I firmly believe that we need to do 
what we should to stem drug trafficking into the United States 
and drug usage in the United States, and I do believe there 
have been some successes, particularly when it comes to the use 
of drugs by children in high school or college and the like.
    There are others, ONDCP and others who are much more 
familiar with that than I am.
    Mr. Cohen. When you say some successes, do you have any 
statistics to show? Statistics actually say that more people 
are using, say, marijuana than have, because the public has a 
feeling about use of certain drugs that maybe the FBI doesn't.
    Is there a better way that some people suggest of looking 
into a system of legalization that might be effective in 
stemming the tide of drugs from Mexico and in the border wars 
and the immigration problems from Mexico? Have you considered 
this as a possibility?
    Mr. Mueller. I think anybody who looks at this problem 
considers it and, ultimately, when you look at it, rejects it.
    I tend to think that the use of particular drugs goes in 
waves. You will have marijuana for a period of time, then you 
will have heroin, then you will have cocaine, then you have 
crack cocaine, then you will have methamphetamine, and then you 
will have Oxycontin, and it goes in waves.
    And too many people----
    Mr. Cohen. Let me ask you about----
    Mr. Mueller. I am sorry. There are too many individuals, 
both parents and others, who have lost their lives to drugs, to 
give a ready answer that it should be legalized.
    Mr. Cohen. I agree with you, sir, and there are lots of 
parents who have lost their lives to crack cocaine, 
methamphetamine, heroin, and they have somewhat gone in waves.
    Name me a couple of parents who have lost their lives to 
marijuana.
    Mr. Mueller. Can't.
    Mr. Cohen. Exactly, you can't, because that hasn't 
happened. There hasn't been a wave, because that has been a 
constant thing in America since Harry Anslinger, because 
African-Americans used it and saw it as something that was 
crippling and gave it to the Latin Americans and put an ethnic 
tone to it.
    When have we--don't we--is there sometime we are going to 
see that we ought to prioritize meth, crack, cocaine and 
heroin, and deal with the drugs that the American culture is 
really being affected by and lives are being lost?
    Mr. Mueller. The only thing I would say is that you talk to 
parents who have lost their children to drugs----
    Mr. Cohen. Right.
    Mr. Mueller [continuing]. And they will inevitably say that 
they started off with marijuana.
    Mr. Cohen. The probably started off with milk and then went 
to beer, and then they went to bourbon, and then they might 
have gone to marijuana.
    The gateway theory doesn't work. It is a reality. 
Obviously, we are not going to agree there.
    Let me ask you about this. In Memphis, we have got a real 
serious problem with the rape crisis program. We used to have a 
national honored, awarded rape crisis program.
    It has come to light that as much as $500,000 which has 
been given to our local city of Memphis government for rape 
crisis reimbursements for kits and for examinations is not 
being reported in their budget.
    And I know the Federal Government pays for the treatment of 
the victims and the kits are provided through our state 
government, I think, through the Fed.
    What area in the FBI would look into the misuse of Federal 
funds, if there is misuse, in local governments and using 
moneys for rape victims and look into the use of our Federal 
funds and appropriating those to see if they have been used for 
the proper purposes?
    Mr. Mueller. I think, initially, it would be up to the 
state and local law enforcement, whether it be the police 
departments or district attorneys to look at it.
    But we also might be involved in terms of public 
corruption, fraud and the like, depending on the seriousness of 
the issue.
    Mr. Cohen. Madam Chair, if I could just close.
    Would you maybe look into it with your local office in 
Memphis to see if there has been an abuse of Federal funds? And 
if there is, that is a serious wrong in these days when we use 
money for----
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Cohen. Thank you, Madam Chair.
    Ms. Lofgren. Mr. Gohmert, the gentleman from Texas, is 
recognized for 5 minutes.
    Mr. Gohmert. Thank you, Madam Chair.
    And, Director, it is good to see you again.
    Mr. Mueller. And you, sir.
    Mr. Gohmert. I am going to change gears from the milk to 
beer line of questioning.
    In the Ted Stevens case, is there any information that any 
FBI agents were aware of the withholding of exculpatory 
evidence that the judge got upset about?
    Mr. Mueller. I think it has been made public that there was 
one agent who brought to the attention of others actions which 
he was concerned of. But because the case is in litigation--not 
in litigation, but under investigation, let me just put it that 
way, in terms of what occurred in the course of that case, 
under investigation by, I believe, OPR and Department of 
Justice, I am really constrained from saying much more about 
it.
    Mr. Gohmert. Was it FBI agents who recorded conversations 
between Rick Renzi and his attorney that were apparently pretty 
clear they were attorney-client privileged conversations?
    Mr. Mueller. I think I would have to disagree with you in 
terms of the context of conversations, and, again, that case 
is----
    Mr. Gohmert. But they were between an attorney and a 
client, correct?
    Mr. Mueller. I am not certain what conversations you are 
talking about and because it is in litigation, I really am 
precluded from talking about.
    Mr. Gohmert. With regard to the widely reported wiretap of 
conversations between Jane Harman of this congressional body 
and two Israelis, was that based--were those wiretaps based on 
a warrant or were they based on warrantless wiretaps out of the 
PATRIOT Act?
    Mr. Mueller. I cannot speak to a particular case, but I can 
tell you that we do not intercept the content of conversations 
without a warrant from a Federal judge, whether it be from 
the----
    Mr. Gohmert. But we covered this now when we talked about 
the PATRIOT Act. And some of us were very defensive of the 
provision that would allow the wiretapping of suspected foreign 
terrorists who were calling from a foreign country, and that 
there would be times that, because they are being wiretapped in 
a foreign country, when they may call in to the United States, 
and the wiretap would pick up a conversation with someone in 
the United States.
    And testimony we have heard before indicated, though, that 
once it was realized it was someone in the United States and it 
was warrantless, based on the PATRIOT Act, then that would be 
minimized and no further wiretaps regarding that individual 
would be had within the United States without first getting a 
warrant.
    That is why I am asking the question. Could that have 
been--were the Israelis actually outside the country, which 
would authorize, under the PATRIOT Act, those warrantless 
wiretaps?
    Mr. Mueller. I can't get into the details of any national 
security investigations we----
    Mr. Gohmert. Well, somebody has gotten into them, because 
it is out in the public that Jane Harman was wiretapped. And 
that is why I am trying to figure out is this consistent with 
what we were told here in this Committee would be done with the 
PATRIOT Act or were these wiretaps within the country?
    Somebody is getting that information out. Otherwise, I 
wouldn't know about it, other than reading the paper.
    Mr. Mueller. All I can tell you is that interceptions by 
the FBI in the United States of individuals in the United 
States are conducted either under Title 3, in the case of a 
criminal matter, or under----
    Mr. Gohmert. But you don't know what happened in the case 
of Jane Harman, correct?
    Mr. Mueller. Pardon?
    Mr. Gohmert. You don't know what happened in the case of 
Jane Harman.
    Mr. Mueller. I am not going to say that. I am going to tell 
you I cannot talk to you about ongoing or past national 
security investigations.
    Mr. Gohmert. So you think Jane Harman is a suspect?
    Mr. Mueller. No, I am not saying that. I am telling you 
that I cannot discuss the details of the case.
    Mr. Gohmert. Well, since I was one of those who----
    Mr. Mueller. And let me just say that that does not assume 
there is a case. I am saying that I cannot discuss the matter 
which you are seeking to get answers.
    Mr. Gohmert. I was one of those who defended the provision 
that would allow warrantless wiretaps of foreign agents in 
foreign countries and who may inadvertently pick something up 
coming in this country. I want to make sure that that is not 
being violated.
    And I know you are concerned about past improprieties not 
being repeated and this was certainly before your watch, but in 
the vein of trying to prevent future illegal disclosures of FBI 
file contents, do you know how it was that 1,000 FBI files, 
approximately, came into the possession of the Clinton White 
House and what steps may have been done to prevent that 
illegality from happening again?
    I know Chuck Colson went to prison for having one in the 
White House. Do you know how that occurred?
    Mr. Mueller. I am not familiar with that.
    Mr. Gohmert. Does it concern you that 1,000 FBI files could 
make their way into the White House to be reviewed there?
    Mr. Mueller. Well, I can tell you that during the time I 
have been at the bureau, we, both between--well, the bureau, 
but, also, with the Department of Justice, assure that we 
follow the appropriate procedures for keeping the privacy of 
our files.
    Mr. Gohmert. Madam Chair, could I ask for a written 
response for one quick question?
    Ms. Lofgren. Certainly.
    Mr. Gohmert. Thank you.
    Director, there is information about 15 percent of 
terrorism cases, this is an IG report, the FBI failed to 
nominate subjects to a watch list. In 8 percent of closed 
terrorism cases, they failed to remove subjects from the watch 
list, and that the FBI removed a subject untimely from the 
watch list, 72 percent of the time it was untimely.
    Could you give us a report on what is being done to try to 
make that more effective?
    As somebody who has prior service members who still find 
themselves on the watch list inappropriately----
    Ms. Lofgren. I think that is a request for a written 
answer.
    Mr. Gohmert. Yes, that is correct.
    Mr. Mueller. Let me just respond. There were 16 
recommendations made in that IG report and we are pursuing each 
one of those recommendations, and many of them have already 
been put into place.
    Mr. Gohmert. Okay. If we could find that out, that would be 
great.
    Mr. Mueller. I would be happy to get back to you on that.
    Mr. Gohmert. Thank you, Director.
    Ms. Lofgren. The gentleman yields back.
    The gentleman from Illinois, Mr. Quigley, is recognized for 
5 minutes.
    Mr. Quigley. Thank you, Madam Chairman.
    I guess good afternoon now, Director.
    Sir, if you could respond to the reports that have been 
listed here, as well, about members of the FBI and ATF not 
always getting along, I guess is the best way to describe it, 
reportedly, at crime scenes where FBI and ATF agents threaten 
to arrest each other or a battle over jurisdiction and key 
evidence.
    Mr. Mueller. I think that was a problem, it was much more 
of a problem several years ago. I think we have done much to 
resolve those issues.
    There is overlapping jurisdiction in some areas, but I 
think we have done much to remove those barriers between the 
two agencies.
    When I travel around, one of the first questions I ask in 
an office is, ``How are you getting along with DEA? How are you 
getting along with ATF?'' The fact of the matter is 99 percent 
of the times in the field, the answer is, ``We get along 
fine.''
    There are some cases where we will have somebody who has a 
long memory about some slight from ATF or somebody in ATF has a 
long memory about some slight from the FBI, but I do think it 
is more personality driven in isolated instances as opposed to 
what I think, some years ago, was an institutional problem.
    That does not mean that there are not areas that we still 
are in the process of resolving in terms of explosives 
databases and the like, but I think we have made substantial 
headway.
    I will tell you that John Pistole, our deputy, spends a 
great deal of time with his counterparts at ATF to minimize 
such problems.
    Mr. Quigley. And I appreciate your candor. When it happens 
on a scene, such as I described, it is one thing. That lack of 
cooperation, if it dealt with national security type issues, 
would be all together another and far more important and 
dramatic, obviously.
    Earlier, you spoke about the cartels and the drug wars as 
relates to the Mexican border, and one of my colleagues 
discussed the issues of representatives from Mexico concerned 
how we were tracking weapons or how weapons are--most of the 
weapons that are being used in Mexico come from the United 
States.
    I guess I juxtaposition this with if these are assault 
weapons and we are concerned about tracking them, wouldn't it 
just be a whole lot easier if we renewed the ban on assault 
weapons as was done previously?
    Mr. Mueller. It might have some impact. One of the things 
that we talk about the percentage of weapons going to Mexico, 
large numbers come from the United States, but, also, the 
cartels, the Zetas and others, are not averse to buying 
elsewhere.
    And so I think you will also find a number of weapons, 
particularly military style weapons, that come into Mexico from 
countries other than the United States.
    That does not mean that we should not be doing better in 
terms of stopping the flow from the United States into Mexico, 
and several, I guess, discussed legislatively may have some 
impact on it.
    Mr. Quigley. Well, the manpower required, the difficulties 
required with tracking or trying to stop, you are judging how 
effective that is versus not selling assault weapons in the 
United States.
    Mr. Mueller. I can't give you an insight into that. I would 
refer to you my friends at ATF who may have better and more 
precise knowledge on those particular issues.
    Mr. Quigley. Well, I appreciate your candor and your 
service. Thank you.
    Mr. Mueller. Thank you, sir.
    Mr. Quigley. I yield back.
    Ms. Lofgren. The gentleman yields back.
    I recognize the gentleman from Texas, Mr. Poe, for 5 
minutes.
    Mr. Poe. Thank you, Madam Chairman, for your patience.
    Thank you for being here.
    I want to follow up on the weapons in Mexico. Isn't it true 
that there have been at least 100,000 members of the military 
that deserted and most of them took their weapons, which many 
of them, if not all of them, are made in Belgium? The Mexican 
military. Are you familiar with that?
    Mr. Mueller. I am familiar with the fact that there have 
been--one of the issues that the military in Mexico faces is 
desertions. I am not familiar with the numbers.
    Mr. Poe. And regardless of where the weapons come from, and 
I take issue that most of them come from the United States, I 
think the statistics prove they come from all over the world.
    Would it seem to you that Mexico has the responsibility to 
protect their borders from illegal weapons coming in, just like 
we have the responsibility to keep drugs out of our country?
    Mr. Mueller. Yes, yes, yes, shares responsibility and both 
sides have a shared responsibility in ensuring that contraband 
does not flow either way.
    Mr. Poe. Going on to another issue. I appreciate the fact 
that you know what terrorism is. FBI has a definition of 
terrorism, does it not?
    Mr. Mueller. Yes.
    Mr. Poe. And without going into it today, I was somewhat 
disturbed that the Attorney General came in here and I asked 
him what he thought terrorism was and he could not give me an 
answer. So he is supposed to give us a written answer on that.
    But at least the FBI knows terrorism when they see it.
    Mr. Mueller. There is a statutory definition of terrorism.
    Mr. Poe. You all follow it.
    You have been to Guantanamo Bay prison.
    Mr. Mueller. Yes.
    Mr. Poe. How many times have you been there?
    Mr. Mueller. Once.
    Mr. Poe. I have been there two. And the information that 
Khalid Sheikh Mohammed provided the United States in now 
Justice Department secret memos that have been released to the 
whole world regarding a plot to blow up the Brooklyn Bridge, a 
plot to crash a plane into the tower in Los Angeles, ratting on 
a cell of 17, including Majid Khan, Hambali, Rusman ``Gun Gun'' 
Gunawan, he is an interesting fellow, and Yazid Suffat, Jose 
Padilla, and Iman Farris.
    Did all that information turn out to be true, what he told 
us?
    Mr. Mueller. That is a very broad question, sir, and----
    Mr. Poe. I know, because you told us a lot of things.
    Mr. Mueller [continuing]. Individuals, I can't--I can't 
speak to pieces of information that were provided by those 
individuals.
    Mr. Poe. My question is did information that KSM gave the 
United States, did that information, any of it, turn out to be 
true?
    Mr. Mueller. Without looking at a particular piece of paper 
or whatever, yes, I believe so.
    Mr. Poe. Do you know of any place in the United States 
where people have offered to house Gitmo detainees in the 
United States? Do you know any state, local, Federal Government 
that wants those people?
    Mr. Mueller. I don't, but I would not necessarily be the 
person to know that, other than what is written--what is in the 
newspaper.
    Mr. Poe. Do you have a solution what to do with them all?
    Mr. Mueller. I don't. That is being discussed across the 
street and down the avenue.
    Mr. Poe. All right.
    Mr. Mueller. I think it is a very difficult--I mean, I will 
say I think everybody recognizes it is a very difficult issue 
and people are honestly wrestling with what the best resolution 
is, and it is a very difficult issue.
    Mr. Poe. And my last question. You said you went to Gitmo. 
When were you there?
    Mr. Mueller. Several years ago. I can't recall. I would 
have to get back to you on that, if it is important.
    Mr. Poe. It is all right. You don't have to get back with 
me on it.
    Thank you very much. Yield back.
    Ms. Lofgren. The gentleman yields back.
    We have been called for votes, but what I would like to do, 
if we can and if Members will be very concise, we have two more 
Members who would like to ask questions. If we can get through 
this, we can go vote and you can go off to do your work without 
waiting for us.
    So Ms. Jackson Lee is actually, since she was here earlier, 
is next, and she is recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Director, thank you very much. And let 
me apologize for being in a markup in another Committee, but we 
had a chance to greet each other just a few--just a day or two 
ago.
    I am very interested in what progress has been made in the 
diversity of the workforce of the FBI. I think that is crucial.
    I also want to emphasize that I have great respect for your 
special agent in charge, agents in charge across America. And I 
think it is important for them to be made aware that 
collaborating with the community is okay.
    We realize that the resources are to be spent on 
investigation, but say, for example, there is a child abduction 
and the community is in an uproar or a predator on the loose. 
And, in fact, a few years ago, I called on the special agent in 
charge in Houston to help our police department find a 
predator, but calm a community.
    Now, the way they handled that was that they were able to 
use the FBI's lab. At that time, we were in a flux about DNA. 
But there is some skepticism and I would appreciate if some 
protocol would be established that it is okay for SACs to come 
to a meeting where a community is to explain what the FBI does. 
Certainly, that is not their main occupation.
    So I would like to just capture that in terms of how SACs 
work in the community.
    The other aspect is to comment on the work that the FBI is 
doing as it relates to civil rights investigations, what level 
or what percentage of work involves that, and I would include 
hate crimes in that.
    Then, lastly, I would be very interested--we have had 
challenges on the watch list, which, as you well know, is said 
to be held by the FBI. That is a complicated, difficult paper 
list, it appears.
    I am interested in how you create or do you create 
terrorist profiles and what kind of underlying data you use, 
but, more importantly, I want to know what progress have we 
made with updating that watch list?
    And I thank the gentleman very much.
    Mr. Mueller. Let me see if I can hit the first one in terms 
of diversity. I absolutely agree with you, the importance of 
diversity. All of our SACs are evaluated on the contributions 
made to diversity in their hiring, promotion, and we have made, 
I believe, good progress, but there is more progress to be 
made.
    I would be happy to get you the----
    Ms. Jackson Lee. I think that would help me, if you would. 
And I would like to work with you on outreach issues regarding 
that, please.
    Mr. Mueller. With regard to the civil rights cases, again, 
I think that would take some time. We have an initiative to 
look at older civil rights cases, and I would like to have you 
briefed on where we are in that particular initiative and the 
numbers we assign to that.
    In terms of having our SACs or the office respond to a 
child abduction or another immediate emergency where persons' 
lives are at danger, there is not a one that would not do it in 
a second. And every SAC is encouraged and evaluated on the 
outreach to the community.
    I cannot imagine, in Houston, for instance, that you would 
not have had the full support at your community meetings or 
otherwise from our personnel in Houston.
    Ms. Jackson Lee. Now, it will be even better.
    Mr. Mueller. It will, but that is wherever we are. We have 
got 400 resident agencies, we have got 56 field offices. We 
know that responding to a child abduction is important to every 
one of us.
    Ms. Jackson Lee. Thank you. And the terrorists?
    Mr. Mueller. The terrorist screening centers, I indicated 
before, the IG report that identifies deficiencies made 16 
recommendations. Many of those recommendations have already 
been pursued and the rest of them are being followed up on.
    We would be happy to tell you where we are and the progress 
we have made on that.
    Ms. Jackson Lee. Madam Chair, I am going to yield back, but 
I am going to ask the director if we can have a more detailed 
discussion.
    I sit on the Homeland Security Committee, as well, and deal 
with the watch list as relates to airports, and I would like a 
very detailed briefing, if necessary, classified, on that issue 
dealing with the watch list.
    And I thank you. On the other issues, I will take a 
briefing on the diversity and, as well, cases involving civil 
rights and hate crimes.
    Mr. Mueller. A briefing on the terrorist screening center, 
I think it would be beneficial to have a joint briefing between 
ourselves and DHS.
    Ms. Jackson Lee. Very good. I yield back.
    Ms. Lofgren. The gentlelady yields back.
    The gentleman from California, Mr. Schiff, is recognized 
for 5 minutes.
    Mr. Schiff. Thank you, Madam Chair.
    And thank you, Mr. Director, for the good work you do.
    I have three questions which I am going to just get out 
very quickly and see if you have time to respond. If not, maybe 
we could follow up later.
    But one brief commentary on some of my colleagues' points 
on the other side of the aisle vis-a-vis Gitmo. And that is, I 
assume my colleagues on the other side of the aisle support 
efforts the Administration is making to get some of our allies 
to agree to take some of these detainees and detain them.
    I don't know where my colleagues think they are going to be 
detained in these other countries or how we can make the case 
that Germany or France or England ought to take detainees and 
detain them if we are unwilling to detain any of them in our 
maximum security prisons.
    That is just an aside.
    My three questions are this. First, on the issue of crack 
cocaine, I know the Administration supports changing the 
enormous disparity between crack and powder cocaine in terms of 
sentencing.
    Do you, Mr. Director, favor a strict equivalence or are 
there some reasons that you feel that crack's nature lends 
itself to some continued disparity or do you think the 
disparity should be eliminated, both in terms mandatory 
minimums and in terms of quantities? That is the first 
question.
    The second question is on the DNA issue. If I understood 
you correctly earlier, you anticipate that there will be no 
backlog in the offender DNA as of June of next year.
    Mr. Mueller. Yes.
    Mr. Schiff. What additional resources do you need, if any, 
to make sure that there is no backlog in June of next year on 
case samples?
    And then, finally, if I could, and you may need to respond 
to this last question at a later date. When I was with the U.S. 
attorneys, I handled the Miller spy case involving an FBI 
agent, Richard Miller.
    So I am very interested in the counterespionage and 
penetration issues. I know the IG did a follow-up report to see 
how many of its earlier recommendations in terms of performance 
had been implemented, and there were, I think, a few very 
pivotal ones that had not yet been implemented in terms of 
preventing penetration.
    One was to create a unit within the bureau focused on 
internal penetration. A second was developing a computer need-
to-know system, but now that we have gone from a virtual case 
file system to Sentinel, will the Sentinel have that kind of 
safeguard in it and then will that be ready by the end of the 
year?
    And then, finally, in the Hanson case, he was able to walk 
out of the FBI with classified documents without any 
difficulty.
    Have measures been taken to be able to detect that people 
are leaving the premises with classified information?
    But if you could address the first two questions and if you 
get time on the last, great; if not, I will follow up with you 
at a later date.
    Ms. Lofgren. There are 2 minutes left.
    Mr. Mueller. On crack cocaine, I have not wrestled with 
that issue. I would have to defer to Justice on that.
    On the second one with regard to the resources necessary to 
reduce the backlog or eliminate the backlog on the case work as 
opposed to the convicted offender program, I would have to get 
back to you on that.
    We are making progress each day, particularly with regard 
to technological fixes, but I would have to get back to you on 
the specific resources.
    In terms of the third issue relating to counterespionage, 
we did establish a unit that is focused on that, which was a 
recommendation of the IG.
    The Sentinel program has those precautions in it to assure 
that we track and monitor everybody who is using the system and 
put out alerts if it is being--if persons are trying to get 
into or get access where they are not allowed to go.
    And lastly, in terms of detecting persons who are exiting 
the building, we have put into place some measures, but it is 
very difficult to prevent a person who has a classified paper 
document or a thumb drive from exiting a building. It is near 
impossible.
    So while we have put into place some provisions, I can't 
tell you that we would be able to stop a person leaving the 
organization with a thumb drive or a classified document.
    Mr. Schiff. Mr. Director, thank you. You have managed to do 
that in 2 minutes, remarkable.
    Madam Chair, I yield back.
    Ms. Lofgren. The gentleman yields back.
    We have been joined by Mr. Johnson. We do have 2-1/2 
minutes before the vote is called.
    So we will ask Mr. Johnson to be as terse as possible, and 
we will conclude our hearing.
    Mr. Johnson. Thank you, Madam Chair.
    I feel abused and discriminated against, and we will talk 
about this later.
    Ms. Lofgren. Well, we will stay for 5 minutes.
    Mr. Johnson. All right. I don't think it is going to take 
that long.
    Director Mueller, thank you for your service to the Nation 
and thank you for coming out today.
    And I have three questions, all three of them just simply 
requiring a yes or no answer, and then I will allow you to 
follow up.
    The first question is: there is a well established link 
between the drug trade and weapons. Isn't that true?
    Mr. Mueller. Yes.
    Mr. Johnson. And, also, isn't it a fact that most of the 
guns that are in the hands of these drug cartels are basically 
American-made weaponry?
    Mr. Mueller. The figure that is thrown around is 90 
percent. I am not certain the basis of that and the accuracy of 
it, but that is what I have seen elsewhere.
    Mr. Johnson. If you heard--well, I won't even ask that 
question.
    Mr. Mueller. I have heard, yes. I mean, I will tell you, I 
have heard that, also, they have weapons, particularly weapons 
they cannot get in the United States, higher power, and 
explosives and the like elsewhere from the United States, from 
other governments in South and Central America.
    Mr. Johnson. Okay. And assault weapons, in particular, are 
the weapon of choice around the world for drug cartels, for 
street crimes, et cetera, et cetera. Correct?
    Mr. Mueller. I would have to say not necessarily. I know 
you want a no or a yes, but not necessarily. It depends on 
where you are in the United States.
    There are certain areas of the United States where assault 
weapons have become a weapon of choice, but there are other 
areas in the United States, most of the communities in the 
United States, where that is not the case.
    Certainly, around the world, you could make the case that 
assault weapons are the Kalashnikovs or AK-47s or the like are 
the weapons of choice.
    Mr. Johnson. Yes. Well, let me ask this question, then. 
Given those facts that you have just agreed to, with the 
exception of the last one, which is qualified, as I would say, 
can you tell us the justification for the continued failure to 
address the assault weapons ban in terms of the gun shows, 
where you can buy anything open and notoriously, without a 
background check, just any kind of weapon whatsoever?
    Can you respond to that?
    Mr. Mueller. I would have to defer to the Department of 
Justice on that. That is a policy issue that has--I have been 
through two Administrations and there are questions that are 
asked in each Administration and each time on this particular 
issue, I defer to the Department of Justice.
    It is a policy issue that the Attorney General generally 
opines on.
    Mr. Johnson. Yes, certainly, that would be appropriate.
    But I just wanted to know what--and I know that you carry 
out policies, but I do want to know. Have you discussed this 
issue with the Administration, with the President?
    Mr. Mueller. Not with the President nor do I think I have 
discussed it with the Attorney General. It has not been a topic 
of our discussions to date.
    Mr. Johnson. Do you think it should be?
    Mr. Mueller. It probably, at some point, will come up. I am 
not certain I can opine on whether it should or should not be.
    Mr. Johnson. Is there any justification for gun show 
loophole remaining like it is, in your mind?
    Mr. Mueller. Well, there are a number of explanations and 
policy arguments both for and against that.
    Mr. Johnson. Can you tell us, briefly, what those are?
    Mr. Mueller. It would be hard for me to resurrect them. 
Clearly, those who oppose the--clearly, on one side will be 
those that believe that the gun shows are a loophole that allow 
felons and others to obtain weapons that they ordinarily could 
not have access to.
    There are others who argue that, for the most part, you 
have antique weapons that are appropriately both kept and sold.
    Ms. Lofgren. The gentleman's 5 minutes has expired.
    Mr. Johnson. Thank you, Madam Chair.
    Ms. Lofgren. We will adjourn this meeting, with thanks, Mr. 
Director, for your testimony and your service.
    Without objection, Members will have a minimum of 5 
legislative days to submit additional written questions to you, 
Mr. Director, which we will forward and ask that you answer 
promptly.
    Without objection, the record will remain open for 5 
legislative days for the submission of other material.
    This has been a very useful hearing, I think. We look 
forward to the additional material you have agreed to send to 
us.
    And this hearing is adjourned.
    [Whereupon, at 12:23 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Jerrold Nadler, a Representative in 
   Congress from the State of New York, and Member, Committee on the 
                               Judiciary
    Thank you, Chairman Conyers. And thank you, Director Mueller, for 
being here and providing your testimony.
    As you may recall, Director Mueller, I am very concerned about 
National Security Letters (NSLs) and the Federal Bureau of 
Investigation's (FBI) handling of its NSL authority. In the past I have 
talked about this at hearings with you and other FBI officials. I am 
going to keep talking about this issue until the relevant statutes get 
fixed--the privacy and constitutional rights of the American people are 
at stake.
    NSLs allow the FBI to gain almost limitless personal information 
about any American from third parties. These requests are done in 
secret and without court approval--there is no one to check the FBI. 
These requests for records or other information can go to a variety of 
third parties, including telephone companies, internet service 
providers, insurance companies, travel agencies, banks, car 
dealerships, and so on. And, since the PATRIOT Act, the requests have 
only to be ``relevant'' to a counter-terrorism or counter-intelligence 
investigation.
    Not surprisingly, with such a low standard, the number of NSL 
requests exploded. It rose from 8,500 in 2000 to an average of about 
50,000 per year between 2003 and 2006. It is difficult to say what 
benefits this has yielded, because outside of general statements and 
idiosyncratic data on their use, I have not seen any hard, empirical 
evidence that this explosion in requests has had any measurable impact 
on counter-terrorism or counter-intelligence.
    What I have seen is that between 2001 and 2008, outside of spikes 
in 2002 and 2004, the number of international terrorism prosecutions 
stayed relatively stable. And, the share of international terrorism 
cases referred by the FBI but rejected for prosecution by the 
Department of Justice (DOJ) rose from 33 percent in 2001 to 87 percent 
in 2006. More information and investigation is not leading to more 
prosecution.
    We also have recently seen evidence of numerous mistakes and abuses 
by the FBI in using its NSL authority. DOJ Inspector General (IG) 
reports in March 2007 and 2008 showed that FBI improperly collected or 
retained personal information. Responses to NSLs were also lost, 
putting our privacy and security at risk. Another IG report, showing 
how the FBI abused its authority by issuing so-called ``exigent 
letters,'' will hopefully be released shortly.
    Not only do NSLs affect the privacy rights of Americans, but they 
affect the First Amendment rights of third parties as well. Those who 
are recipients of NSLs are generally prevented from talking about them 
by the government. Under the statute as written, recipients have the 
burden of bringing court challenges of these orders, and government 
assertions that such disclosures would harm national security, 
diplomatic relations, certain investigations, and so on are treated as 
conclusive. Fortunately, last December, the Court of Appeals for the 
Second Circuit, in Doe v. Mukasey, struck down some of these ``gag 
order'' provisions as unconstitutional. It is time for Congress to fix 
the statute with respect to gag orders and the entire NSL scheme.
    Along with Reps. Delahunt, Flake, and Paul, I have re-introduced 
legislation, H.R. 1800, the National Security Letters Reform Act of 
2009, to address these issues. Among other improvements it would 
restore the pre-PATRIOT Act standard that there must be ``specific and 
articulable facts'' that the information requested pertains to a 
foreign power or agent thereof, provide NSL recipients a meaningful 
right to challenge the letter and the nondisclosure requirement, allow 
NSL targets to challenge their issuance, and require procedures so that 
information concerning persons no longer of interest is destroyed. I 
think this legislation is critical to restoring the balance between 
fighting terrorism and protecting our civil liberties and freedoms.
    I look forward to talking with you, Director Mueller, about NSLs 
and hearing your testimony on what I am sure will be a whole host of 
issues. Thanks again for being here.
    With that, I yield back the balance of my time.

                                <F-dash>

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary
    Mr. Chairman, thank you for arranging today's oversight hearing for 
the Federal Bureau of Investigation. I'd also like to welcome Director 
Mueller back before the Committee today.
    I'd like to focus my time and questions today on three areas that I 
believe need more attention: crimes related to mortgage and financial 
fraud; problems of police misconduct; and the need to address 
persistent complaints of discrimination and double standards at the 
FBI. In the limited time I have today, let's see what information you 
can provide now and the remainder of my questions will be submitted to 
you in writing.

                                <F-dash>

 Post-Hearing Questions submitted to the Honorable Robert S. Mueller, 
            III, Director, Federal Bureau of Investigation*
---------------------------------------------------------------------------
    *Note: At the time of the printing of this hearing, the Committee 
had not received a response to the post-hearing questions submitted to 
the this witness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
